                                   Report Template Version = 01-26-05




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  STATE FEES FOR NURSE AIDE 

        REGISTRATION





                    Daniel R. Levinson

                    Inspector General 


                      December 2005

                     OEI-07-05-00070

                                                                Report Template Version = 01-26-05




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid fraud control
units which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within
HHS. The OCIG also represents OIG in the global settlement of cases arising under the
Civil False Claims Act, develops and monitors corporate integrity agreements, develops
compliance program guidances, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
                                                                                     Report Template Version = 01-26-05




Δ   E X E C U T I V E                                    S U M M A R Y                   



                  OBJECTIVE
                  To determine whether, and to what extent, States impose fees related to
                  registration on individuals listed in their nurse aide registries.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 (OBRA 1987) included
                  numerous provisions intended to lead to improvements in the quality of
                  care in long term care facilities. For instance, OBRA 1987 requires that
                  each State establish and maintain a nurse aide registry. This registry
                  consists of individuals who have successfully completed nurse aide
                  training and competency evaluation programs or have otherwise been
                  deemed competent to function as nurse aides, as well as individuals who
                  have been barred from serving as nurse aides due to substantiated
                  adverse findings of abuse, neglect, and misappropriation.
                  Sections 1819(e)(2) and 1919(e)(2) of the Social Security Act prohibit
                  States from imposing any charges related to registration on individuals
                  listed in the registry.

                  This study was based on two methods of data collection: (1) Web site
                  searches and telephone inquiries to determine whether each State
                  imposed fees related to registration of individuals on nurse aide
                  registries; and (2) surveys mailed to those States that, based on Office of
                  Inspector General (OIG) Web site searches and telephone inquiries,
                  indicated they might be charging fees that statute, regulation, and
                  manual provisions prohibit.


                  FINDINGS
                  Twenty-four States imposed fees that nurse aides may be required to pay
                  for placement on nurse aide registries. Some States charged nurse aides
                  more than one type of fee (e.g., a fee for initial placement and a fee for
                  continued placement), while other States charged nurse aides only one
                  fee. Twenty States listed nurse aides as a source of payment for initial
                  placement fees, and 14 States listed nurse aides as a source of payment
                  for continued placement fees on their registries. Seven States charged
                  fees for criminal background checks and/or fingerprinting required for
                  initial placement on their registries that nurse aides may be required to
                  pay.




OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                      i
                                                                                      Report Template Version = 01-26-05




E X E C U T I V E                      S U            M M A R Y


                   Four States imposed fees on nurse aides as a requirement to work in long
                   term care facilities. These four States did not explicitly charge for initial or
                   continued placement on the registry, but required fees for a nurse aide to
                   work in a long term care facility. Failure to pay these fees could lead to
                   nurse aides being removed from the registry.
                   Guidance was provided only to States that requested it and oversight
                   conducted of all States regarding registry fees was limited. Based on
                   survey responses from the subset of States that charged fees, five States
                   reported that they sought additional guidance from the Centers for
                   Medicare & Medicaid Services (CMS). The nature of the guidance these
                   States received varied, such as advice provided over the telephone, or a
                   mailed copy of the governing regulation. It does not appear that CMS
                   shared the guidance with other States or regions. Ten States reported
                   that they sought guidance from their own State legal entities, rather than
                   CMS.


                   RECOMMENDATIONS
                   OIG recommends that CMS:

                   Ensure States cease imposing fees on nurse aides that violate
                   Federal requirements. The statute, regulation, and State Medicaid
                   Manual offer broad prohibitions against charging fees on nurse aides for
                   placement on nurse aide registries. However, OIG found that a number
                   of States are charging such fees. CMS should take action to ensure that
                   this practice is discontinued.
                   Clarify prohibitions on the charging of fees related to nurse aide
                   registries. The actions of States identified in this study suggest that the
                   statute, regulation, and/or State Medicaid Manual may not provide
                   sufficient guidance and that additional guidance is necessary. For
                   example, CMS could issue program guidance to all States to help clarify
                   the prohibitions on fees.
                   Conduct appropriate oversight to prevent States from charging
                   inappropriate fees. This study provides specific information on which
                   States require immediate oversight. Additionally, CMS may want to
                   develop a process for ongoing oversight to prevent States from charging
                   prohibited fees in the future.




 OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                      ii
                                                                                      Report Template Version = 01-26-05




E X E C U T I V E                      S U            M M A R Y 





                   AGENCY COMMENTS
                   CMS concurred with all three OIG recommendations. CMS indicated
                   that it will work through the regional offices to notify States found to be
                   imposing fees in violation of Federal requirements that such practices
                   must cease and will ensure proper revenue offsets were made to any
                   claims for Federal financial participation. CMS indicated that it will
                   also ensure that all State Medicaid agencies receive written reminders
                   of statutory and regulatory provisions that prohibit charges on nurse
                   aides related to the nurse aide registry, that regional offices will receive
                   a copy of the report, and that regional offices conduct periodic reviews of
                   States’ compliance with nurse aide registry requirements.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   OIG appreciates CMS’s comments to this report and is encouraged with
                   the active participation CMS plans to take in ensuring that nurse aides
                   are not charged fees related to their placement on their respective
                   State’s nurse aide registry.




 OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                     iii
                                                                                   Report Template Version = 01-26-05




Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i



         INTRODUCTION ................................................ 1





         FINDINGS ....................................................... 4

                    States imposed fees for placement on registries . . . . . . . . . . . . . . . 4 


                    States imposed fees for employment . . . . . . . . . . . . . . . . . . . . . . . . 5 


                    Guidance in response to States and limited oversight. . . . . . . . . . . 6 





         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8





         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    A: 	State Fees for Initial Placement on Registries . . . . . . . . . . . . . 10 


                    B: 	State Fees for Continued Placement on Registries . . . . . . . . . 11 


                    C: 	State Fees for Criminal Background Check and/or

                        Fingerprinting for Placement on Registries . . . . . . . . . . . . . . . 12 





         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                                                                                     Report Template Version = 01-26-05




Δ   I N T R O D U C T I O N                                                     



                  OBJECTIVE
                  To determine whether, and to what extent, States impose fees related to
                  registration on individuals listed in their nurse aide registries.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 included numerous
                  provisions intended to lead to improvements in the quality of care in
                  long term care facilities, such as the requirement that each State
                  establish and maintain a nurse aide registry. This registry lists
                  individuals who have successfully completed nurse aide training and
                  competency evaluation programs or have otherwise been deemed
                  competent to function as nurse aides, as well as individuals who are
                  barred from serving as nurse aides due to substantiated adverse
                  findings of abuse, neglect, and misappropriation.
                  Prohibition Against Nurse Aide Registry Fees
                  Sections 1819(e)(2) and 1919(e)(2) of the Social Security Act (the Act)
                  and Federal regulation 42 CFR § 483.156(b)(4) prohibit States from
                  imposing any charges related to registration on individuals listed in the
                  registry. State Medicaid Manual section 2514(H) directs that the States
                  “ . . . may not impose any charges on a nurse aide relating to the
                  registry,” and section 4460 directs that the State must “ . . . ensure that
                  the nurse aide registry . . . does not impose any charges related to
                  registration on individuals listed in the registry.”
                  Other Nurse Aide Registry Studies
                  This report is one of several Office of Inspector General (OIG) studies
                  regarding nurse aide registries. The first report, “Nurse Aide
                  Registries: State Compliance and Practices” (OEI-07-03-00380) found,
                  in part, that States failed to update registries with substantiated
                  adverse findings and remove records of inactive nurse aides, as
                  required. The second report, “Nurse Aide Registries: Long Term Care
                  Facility Compliance and Practices” (OEI-07-04-00140) found that
                  17 percent of long term care facilities employed individuals as nurse
                  aides without required registrations. While conducting these studies,
                  OIG was informed that States might be charging fees for placing
                  individuals on their respective registries.

                  After initiating this study, OIG learned that the Centers for
                  Medicare & Medicaid Services (CMS) requested all States to complete a
                  self-assessment related to nurse aide registry requirements. This

OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                     1
                                                                                       Report Template Version = 01-26-05




I N T R O D        U C T              I O N


                    activity occurred in response to prior OIG reports. Part of the
                    self-assessment asked States to report compliance regarding fees
                    charged for placement of individuals on nurse aide registries. At the
                    time of this review, the results of this self-assessment were not
                    available.


                    METHODOLOGY
                    OIG utilized two methods of data collection in this study: (1) Web site
                    searches and telephone inquiries to determine whether each State
                    imposed fees related to registration of individuals on nurse aide
                    registries; and (2) surveys mailed to those States that, based on OIG
                    Web site searches and telephone inquiries, indicated the State might be
                    charging fees that statute, regulation, and manual provisions prohibit.
                    Web Site Searches and Telephone Inquiries
                    For each of the 50 States and the District of Columbia (hereinafter
                    referred to as a State), OIG accessed the nurse aide registry Web site, if
                    available, to determine whether or not the State imposed fees associated
                    with placement of individuals on the nurse aide registry (excluding
                    training and competency evaluation fees). OIG then contacted all
                    States via telephone. For those States that had information on their
                    Web sites about whether fees were charged, OIG confirmed this
                    information. For all other States, OIG obtained information about
                    whether or not fees were charged.
                    Survey Responses
                    Based on information collected through Web site searches and
                    telephone inquiries, OIG identified States that imposed fees for such
                    things as initial placement on the registry, renewal of registrations, and
                    criminal background checks and/or fingerprinting. OIG mailed a brief
                    survey to these States asking about the fees charged, sources of
                    payment, and the guidance the States had sought, if any, when deciding
                    to charge these fees. OIG received a 100 percent response rate to the
                    survey.

                    OIG followed up with CMS central office regarding guidance provided to
                    individual States and oversight conducted. OIG requested, and
                    subsequently received from CMS, all guidance it reported providing to
                    States on fees related to nurse aide registration.




 OEI-07-05-00070    S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                       2
                                                                                       Report Template Version = 01-26-05




I N T R O D        U C T              I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-05-00070    S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                       3
                                                                                        Report Template Version = 01-26-05




Δ      F I N D I N G S

                                                             Based on information obtained
   Twenty-four States imposed fees that nurse
                                                             from State nurse aide registry Web
aides may be required to pay for placement on
                                                             sites and telephone inquiries, and
                         nurse aide registries               confirmed through State responses
                     to a mail survey, OIG determined that 24 States imposed fees that
                     nurse aides may be required to pay for initial and/or continued
                     placement on nurse aide registries.1 This number might be higher as
                     other States may have bundled the registry fees into competency
                     evaluation or other fees; therefore, for some States OIG was unable to
                     identify the fees specific to registration. Some States charged nurse
                     aides more than one type of fee (e.g., a fee for initial placement and a fee
                     for continued placement), while other States charged nurse aides only
                     one fee. Registry fees included application, registration, initial
                     certification, reciprocity,2 renewal of registrations, criminal background
                     checks, and/or fingerprinting. In all 24 States, either the nurse aide is
                     solely responsible for payment of the fees, or the nurse aide pays in
                     specified circumstances, such as if the nurse aide was unemployed at
                     the time of renewal.
                     Twenty States charged a fee that nurse aides may be required to pay for
                     initial placement on the registry
                     OIG identified the following types and ranges of fees for initial
                     placement on the registry: application ($15-$50), registration ($15),
                     initial certification ($12-$120), and reciprocity ($10-$58). A listing of
                     State fees for initial placement can be found in Appendix A. The States’
                     various uses of “application,” “registration,” and “initial certification”
                     are synonymous and are not related to completion of a training
                     program, for which fees may sometimes be charged pursuant to sections
                     1819(f)(2)(A)(iv) and 1919(f)(2)(A)(iv) of the Act. Rather, these charges
                     are merely for inclusion in the registry. Alaska charged the highest
                     total fees ($170) for initial placement on the registry. In response to the
                     mail survey, 10 of the 20 States that charged fees for initial placement
                     on the registry reported that nurse aides are the sole source of payment.


                     1 All 24 States charged at least 1 fee that nurse aides may be required to pay even if other
                       fees were paid only by the long term care facility.
                     2 Reciprocity is a process by which a registered nurse aide from another State may qualify
                       for registration in a new State by virtue of his or her status in the previous State. An
                       individual is only eligible for reciprocity if he or she has been entered on a nurse aide
                       registry in another State in accordance with the training and competency evaluation
                       requirements of section 1919(f)(2) of the Act, and if the individual is currently listed on
                       that State’s nurse aide registry as active and without substantiated adverse findings.



   OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                        4
                                                                                         Report Template Version = 01-26-05




F    I N D I N G       S


                      The remaining 10 States reported that fees were received from either
                      nurse aides or long term care facilities.
                      Fourteen States charged a fee that nurse aides may be required to pay for
                      continued placement on the registry
                      Fees ranged from $5 to $120 for (typically biennial) renewals, or more if
                      the renewal was processed after the expiration date. A listing of State
                      fees for continued placement can be found in Appendix B. Eight States
                      reported that fees were received from either nurse aides or long term
                      care facilities, and six States reported that fees were received from
                      nurse aides only. In addition to the 14 States, 4 States reported that
                      fees were received from long term care facilities only, which does not
                      violate the prohibition on charging nurse aides, so long as the costs are
                      not passed on to nurse aides. One additional State did not charge if the
                      renewal was accomplished timely, but charged $10 for each year past
                      the expiration date, not to exceed $100.
                      Seven States charged fees that nurse aides may be required to pay for
                      criminal background checks and/or fingerprinting for placement on the
                      registry
                      The criminal background checks and/or fingerprinting were required as
                      a condition for initial placement on the registry, and fees ranged from
                      $5 to $600. A listing of State fees for criminal background checks and/or
                      fingerprinting can be found in Appendix C. Of the seven States,
                      four reported that fees were received from nurse aides only, and
                      three States reported that fees were received from either nurse aides,
                      long term care facilities, or State entities. Other States may have
                      conducted criminal background checks and/or fingerprinting of their
                      nurse aides, but did not charge a fee.


                                                                 In the mail survey, four States
     Four States imposed fees on nurse aides as a
                                                                 reported not charging for initial
    requirement to work in long term care facilities
                                                                 or continued placement on the
                      registry, but charged fees for nurse aides to work in long term care
                      facilities. Two of these States required an initial certification,
                      application, or renewal fee in order for a nurse aide to work in a long
                      term care facility. For example, in its response to the mail survey,
                      Nevada staff stated, “Nevada does not charge any amount for a person
                      to be placed on the registry . . . however, [Nevada] charge[s] a fee for an
                      application for a certificate to practice as a nursing assistant.”
                      Similarly, New Hampshire responded, “No fees are applied to the
                      registry placement process.” However, OIG learned during the
    OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                         5
                                                                                         Report Template Version = 01-26-05




F   I N D I N G 
S


                      telephone inquiry that New Hampshire nurse aides working in long
                      term care facilities must become “licensed nursing assistants” and pay a
                      $20 license application fee. Both Nevada and New Hampshire charged
                      renewal fees for this certificate or license, respectively. Arkansas and
                      Delaware charged fees for criminal background checks and/or
                      fingerprinting required for employment in a long term care facility.
                      These States reported that fees were received from long term care
                      facilities, State entities, or nurse aides.

                      Payment or nonpayment of fees in these States does not affect
                      a nurse aide’s initial placement on the registry. However,
                      42 CFR § 483.156(c)(2) requires that individuals who have performed no
                      nursing or nursing-related services for a period of 24 consecutive
                      months be removed from the registry, unless the individual’s registry
                      record includes documented substantiated findings of abuse, neglect, or
                      misappropriation of property. OIG alerted CMS that these fees may
                      relate to the registry given that failure to pay the fees will ultimately
                      result in the nurse aide’s removal from the registry. In these States, it
                      is therefore difficult to conclude whether the fees charged to nurse aides
                      are, in effect, fees for placement on the States’ registries.



                                                                OIG asked States that charged
        Guidance was provided only to States that
                                                                fees what guidance they sought
          requested it and oversight conducted of
                                                                from CMS concerning charges to
                 all States regarding registry fees             nurse aides. Based on survey
                                       was limited              responses from this subset of
                                                                States, five reported that they
                      sought additional guidance from CMS. The nature of the guidance
                      these States received from CMS varied, such as advice provided over the
                      telephone or a mailed copy of the governing regulation. It does not
                      appear that CMS shared the guidance with other States or regions.
                      Ten States reported that they sought guidance from their own State
                      legal entities on charging registry fees, rather than from CMS. This
                      may demonstrate that these States were unclear about the legality of
                      fees for nurse aide registration.

                      OIG requested from CMS examples of guidance it provided to States
                      (see examples in the text box on the next page), which came from both
                      central and regional offices. This guidance does not appear to have
                      clarified the uncertainty regarding the breadth of the prohibition on
                      charging fees to nurse aides, as illustrated by the results of this study.

    OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                         6
                                             Exampl s of CMS guidance to States:

                              Oregon-In       1992 ,   CMS region X conducted a program
                              review of the nurse aide registry and stated in the report
                              that employed nurse aides cannot be charged training,
                                                 , or renewal fees and that these fees
                              testing, certification
                              must be paid by the employer. However , unemployed nurse
                              aides may be charged fees.

                              Virginia-In    1995 , CMS region III issued a letter stating
                              that if Virginia s statutory due process requirements go
                              beyond Federal requirements , then the State is permitted to
                              charge fees for these activities.

                              Arizona-In    1999 , CMS region IX responded to an inquiry
                              saying that the State may not impose a charge for
                              fingerprinting of individuals listed in the registry.

                              Kentucky-In        1999 ,   CMS central offce provided a response
                              to an inquiry via electronic mail stating that Kentucky
                              cannot impose charges on nurse aides to remain on the
                              registry (i. , charge renewal fees).



                     OIG found little evidence of CMS oversight as it relates to fees States
                     charge for nurse aide registration. Only one State reported in the mail
                     survey that the CMS regional offce had conducted a program review
                     which was in 1992 , and recommended that the State cease charging
                     employed nurse aides for certification fees. While the State has ceased
                     charging fees to employed nurse aides , as per CMS guidance , the State
                     continues to charge fees to unemployed nurse aides.
                     OIG followed up with CMS central offce staff about the extent of
                     program reviews conducted. OIG was told that the CMS component
                     that previously performed the program reviews was disbanded in the
                     mid- 1990s. OIG was also told that the CMS regional offce Medicaid
                     Financial Management work plan for fiscal year 2005 includes one
                     planned review of compliance with nurse aide training and competency
                     evaluation program requirements in one region. This review would
                     include an examination of nurse aide registry fees. Finally, in late
                     2004 , CMS did ask all States to complete a self- assessment related to
                     nurse aide registry requirements in response to prior OIG reports.


OEI. 07. 05. 00070   STATE FEES FOR NURSE AIDE REGISTRATION
                                                                                          Report Template Version = 01-26-05




E X E C U T I V E                      S U            M M A R Y
Δ    R E C O M M E N D A T I O N S                                                    





                   Twenty-four States imposed fees on nurse aides for initial or continued
                   placement on nurse aide registries, a violation of Federal requirements.
                   In addition, four States imposed fees on nurse aides for the ability to
                   work in long term care facilities, which could have a direct effect on
                   nurse aides’ placement on the registry. Finally, CMS provided guidance
                   only in response to specific State requests and conducted limited
                   oversight of all States regarding registry fees. Therefore, OIG
                   recommends that CMS:
                   Ensure States cease imposing fees on nurse aides that violate Federal
                   requirements
                   The statute, regulation, and State Medicaid Manual offer broad
                   prohibitions against charging fees on nurse aides for placement on
                   nurse aide registries. However, OIG found that a number of States are
                   charging such fees. CMS should take action to ensure that this practice
                   is discontinued.
                   Clarify prohibitions on the charging of fees related to nurse aide registries
                   The actions of States identified in this study suggest that the statute,
                   regulation, and/or State Medicaid Manual may not provide sufficient
                   guidance and that additional guidance is necessary. For example, CMS
                   could issue program guidance to all States to help clarify the
                   prohibitions on fees.
                   Conduct appropriate oversight to prevent States from charging
                   inappropriate fees
                   This study provides specific information on which States require
                   immediate oversight. Additionally, CMS may want to develop a process
                   for ongoing oversight to prevent States from charging prohibited fees in
                   the future.


                   AGENCY COMMENTS
                   CMS concurred with all three OIG recommendations. CMS indicated
                   that it will work through the regional offices to notify States found to be
                   imposing fees in violation of Federal requirements that such practices
                   must cease and will ensure proper revenue offsets were made to any
                   claims for Federal financial participation. CMS indicated that it will
                   also ensure that all State Medicaid agencies receive written reminders
                   of statutory and regulatory provisions that prohibit charges on nurse
                   aides related to the nurse aide registry, that regional offices will receive

 OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                          8
                                                                                         Report Template Version = 01-26-05




R   E C O        M M E N D A T                         I O N               S


                      a copy of the report, and that regional offices conduct periodic reviews of
                      States’ compliance with nurse aide registry requirements.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      OIG appreciates CMS’s comments to this report and is encouraged with
                      the active participation CMS plans to take in ensuring that nurse aides
                      are not charged fees related to their placement on their respective
                      State’s nurse aide registry.




    OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                         9
                                                                                                          Report Template Version = 01-26-05




Δ   A P P E N D I X                                     ~            A            



           State Fees for Initial Placement on Registries

                                                                                                   Initial
                   State                  Application                Registration                                Reciprocity*
                                                                                                Certification

                           Alaska                         $50                              $0            $120              $0

                           Arizona                          $0                             $0               $0            $45

                        California                        $15                              $0               $0             $0

                        Colorado                          $20                              $0               $0            $10

                     Connecticut                            $0                             $0               $0            $58

            District of Columbia                            $0                             $0            $12**            $15

                           Kansas                           $0                             $0              $20             $0

                        Maryland                            $0                             $0              $20             $0

                  Massachusetts                             $0                             $0               $0            $20

                        Michigan                            $0                             $0              $12             $0

                      Mississippi                           $0                             $0               $0            $25

                     New Jersey                             $0                             $0               $0            $30

                     New Mexico                             $0                             $0               $0            $35

                       New York                             $0                             $0               $0            $50

                       Oklahoma                             $0                             $0               $0            $15

                           Oregon                           $0                             $0              $40             $0

                   Rhode Island                           $25                              $0               $0             $0

                         Vermont                          $20                              $0               $0             $0

                     Washington                             $0                         $15                 $15             $0

                        Wyoming                             $0                             $0              $60             $0
                                                              Source: Office of Inspector General survey of State fees, 2005.
           * - The reciprocity fee is in addition to application, registration, and initial certification
              fees. For a discussion of reciprocity, see footnote 2 on page 4.
           ** - Fee paid by long term care facilities only.




OEI-07-05-00070         S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                                         10
                                                                                                     Report Template Version = 01-26-05




Δ   A P P E N D I X                               ~            B            



                             State Fees for Continued Placement on
                             Registries

                                                State                                        Fee

                                                                Alaska                                  $120

                                                              Arizona                fee for late renewal only

                                                           California                                    $20*

                                                            Colorado                                     $20*

                                                            Maryland                                      $30

                                                            Michigan                                      $20

                                                         Mississippi                                      $25

                                                          Oklahoma                                         $5

                                                               Oregon                                    $40*

                                                      Rhode Island                                        $24

                                                   South Carolina                                         $25

                                                             Vermont                                     $25*

                                                               Virginia                                   $45

                                                       Washington                                        $25*

                                                           Wyoming                                        $50
                                Source: Office of Inspector General survey of State fees, 2005.
                             * - Renewal fee if renewal completed timely;
                                    additional late fees apply.




OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                                    11
                                                                                               Report Template Version = 01-26-05




Δ   A P P E N D I X                               ~            C            





                  State Fees for Criminal Background Check
                  and/or Fingerprinting for Placement on
                  Registries

                                    State                                            Fee

                                                 Alaska                                     $59-$89

                                            California                                      $42-$62

                                             Colorado                                      $30-$600

                                                Florida                                     $33-$57

                                      Pennsylvania                                             $24

                                      Rhode Island                                              $5

                                            Wyoming                                            $60
                           Source: Office of Inspector General survey of State fees, 2005.




OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                              12
                                                                                     Report Template Version = 01-26-05




Δ   A G E N C Y                      C O M M E N T S

    Centers for Medicare & Medicaid Services’ Comments




OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                    13
                                                                                       Report Template Version = 01-26-05




A G   E N     C Y      C O            M M E N T                          S 





 OEI-07-05-00070    S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                      14
                                                                                     Report Template Version = 01-26-05




Δ   A C K N O W L E D G M E N T S                                                    




                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Tricia Fields, Team Leader
                  Brian T. Whitley, Program Analyst

                  Dennis Tharp, Program Analyst

                  Sandy Khoury, Program Specialist

                  Tricia Davis, Director, Medicare & Medicaid Branch




OEI-07-05-00070   S TAT E F E E S   FOR   N U R S E A I D E R E G I S T R AT I O N
                                                                                                                    15
